NATIONAL CREDIT UNION ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL


             OFFICE OF FOREIGN ASSET CONTROL
                   COMPLIANCE REVIEW



                          Report #OIG-06-09

                          December 18, 2006




                          William A. DeSarno
                          Inspector General


 Released By:                                  Auditor-in-Charge:



 James W. Hagen                                Charles E. Funderburk, CPA
 Assistant Inspector General for Audits        Senior Auditor
                     TABLE OF CONTENTS


                                         Page

EXECUTIVE SUMMARY                         1

BACKGROUND                                2

PURPOSE AND OBJECTIVES                    5

SCOPE AND METHODOLOGY                     5

RESULTS                                   6

RECOMMENDATIONS                           8

MANAGEMENT RESPONSE                       10

APPENDIX A                                12

APPENDIX B                                16
                            EXECUTIVE SUMMARY

The United States Congress has shown an interest in the status of financial institutions’
compliance with the Office of Foreign Asset Control (OFAC) administered laws and
regulations. Therefore, the National Credit Union Administration (NCUA) Office of
Inspector General (OIG) initiated a review to determine whether NCUA provides
effective supervision over federally chartered credit unions’ compliance with OFAC
requirements.

We reviewed OFAC program requirements as well as NCUA policies, procedures and
guidance related to the examination and supervision of credit unions’ compliance with
those requirements. In addition, we reviewed the Federal Financial Institutions
Examination Council (FFIEC) Bank Secrecy Act/Anti-Money Laundering Examination
Manual (BSA/AML Manual) as it relates to OFAC requirements. Finally, we reviewed
reports of examination and related examination workpapers for a random judgmentally
selected sample of 12 federally chartered credit unions.

Our efforts to evaluate and verify the examiners’ conclusions were hampered by the lack
of documentation. We were unable to determine conclusively whether NCUA was
effectively supervising federal credit unions’ compliance with OFAC regulations. Under
the NCUA Risk Focused Examination program, OFAC compliance is not required to be
reviewed at each examination and NCUA examination workpapers are exception based.
If an examiner concludes that an institution is OFAC compliant, there is no requirement
that the examiner maintain copies of documentation to support that conclusion. We
believe, however, that this policy makes it difficult to assess the adequacy of
examinations and creates inconsistency in how program results are documented.
Guidelines recently issued by the FFIEC should help ensure the consistency of
examination coverage.

Eleven of twelve credit unions in our sample were reviewed by NCUA examiners for
OFAC compliance. However, there was a lack of supporting documentation for some
OFAC examination procedures performed, and only six of the twelve examinations made
use of the NCUA OFAC checklist.

NCUA has issued guidance to both credit unions and examiners which address the
requirements for an OFAC compliance program and supervision of that program,
respectively. However, in both instances we found the guidance too general, especially
with regard to guidelines for examiner review of credit union compliance programs.

The OIG has made two recommendations that should result in an improved OFAC
compliance examination program.




                                             1
                                   BACKGROUND
OFAC Requirements

The Office of Foreign Assets Control (OFAC) of the U.S. Department of Treasury
administers and enforces economic and trade sanctions based on U.S. foreign policy and
national security goals against targeted foreign countries, terrorists, international
narcotics traffickers, and those engaged in activities related to the proliferation of
weapons of mass destruction. OFAC acts under Presidential wartime and national
emergency powers, as well as authority granted by specific legislation, to impose controls
on transactions and freeze foreign assets under U.S. jurisdiction.

OFAC regulations apply to all U.S. persons and entities, including financial institutions.
Financial institutions are subject to the prohibitions and reporting required by OFAC
regulations. However, OFAC has not issued specific regulatory program requirements
for compliance. A violation of law occurs only when a financial institution conducts a
transaction which has been blocked or rejected, or fails to block or report an illicit
transfer. Moreover, while there is no minimum or maximum dollar limit on transactions,
every transaction is subject to OFAC sanctions.

OFAC maintains the list of Specially Designated Nationals (SDN), which includes the
names of individuals and entities whose transactions are prohibited. The SDN is
frequently updated with no predetermined timetable. OFAC urges financial institutions
to establish compliance programs, including designating an OFAC compliance officer,
and developing internal audit procedures. OFAC recommends that financial institutions
conduct in-depth annual audits at least annually. OFAC further states that an adequate
compliance program depends in large part on who the financial institution’s customers
are and what kinds of business the financial institution conducts.

Financial institutions are required to report, in writing, all blocked and rejected
transactions to OFAC within ten days of occurrence. In addition, there is an annual
financial institution reporting requirement of blocked transactions held, as of June 30,
which is due September 30.

Financial regulatory agencies, including NCUA, are responsible for reviewing financial
institutions under their supervision to determine the adequacy of OFAC compliance
programs.

Agency Issued OFAC Compliance Guidance

NCUA has issued guidance on OFAC program compliance through the NCUA
Examiner’s Guide, NCUA Federal Credit Union (FCU) Handbook, NCUA Letters to
Credit Unions, and NCUA Regulatory Alerts. (See Appendix A for details).

Appendix 18A of the NCUA Examiner’s Guide sets forth the OFAC compliance
requirements that credit unions must adhere to. The Guide provides a brief overview of




                                             2
what a viable compliance program should cover, including requiring credit unions, when
they conduct member/customer identification procedures, to determine whether the
member or entity appears on the SDN list. The FCU Handbook generally provides that
credit unions must maintain a current list of prohibited individuals and countries; must
compare their members, new members and account transactions against the list; must
block all accounts and transactions with prohibited entities; and must ensure that a
designated person compares and maintains the current list of prohibited individuals and
entities with members’ transactions.

NCUA Letter to Credit Unions 05-CU-09, issued June 2005, states that credit unions
have both BSA and OFAC responsibilities. While recognizing that BSA and OFAC
requirements are separate and distinct, Letter 05-CU-09 emphasizes that both are an
essential part of an anti-money laundering program. Consequently, the letter directs
credit unions to evaluate potential compliance violations under the BSA and OFAC and
take appropriate action to reduce any risks detected or address any violations.

Likewise, NCUA has advised its examiners to treat compliance with OFAC requirements
as related to BSA compliance, such that supervisory examinations by the regulators for
both BSA and OFAC programs are connected. In December 2001, NCUA issued Letter
to Credit Unions 01-CU-25, which stated that, as part of NCUA’s responsibility to ensure
federally insured credit unions comply with applicable laws and regulations, NCUA had
developed an examiner checklist which examiners may use to document their review of a
credit union’s OFAC compliance program.

Federal Financial Institutions Examination Council (FFIEC) 1 Bank Secrecy
Act/Anti-Money Laundering Examination Manual

In order to codify in one comprehensive document previously issued guidance on the
BSA and anti-money laundering efforts, the Financial Crimes Enforcement Network
(FinCen), OFAC, FFIEC members, including NCUA, worked together to develop
standards to evaluate BSA and OFAC compliance programs at financial institutions. In
June 2005, the FFIEC released its Bank Secrecy Act Anti-Money Laundering Examination
Manual (BSA/AML Manual). Federal agencies, including NCUA, began using the
Manual during the third quarter of 2005. On July 28, 2006, the FFIEC released a revised
BSA/AML Manual. The Manual was updated to further clarify supervisory expectations
and incorporate regulatory changes since the manual’s 2005 release. The revisions also
drew upon feedback form the banking industry and examination staff.

Portions of the Manual relate specifically to compliance with various OFAC sanctions
programs. In addition, working with FFIEC members, OFAC developed a risk matrix
(see Appendix B to this report) which may be used by financial institutions’ as “best
practices.” The matrix provides a guide for evaluating a credit union’s risk of
1
  FFIEC, established under Title X of the Financial Institutions Regulatory and Interest Rate Control Act of 1978, is a
formal interagency body empowered to prescribe principles, standards, and report forms for the examination of
financial institutions by federal regulators. The members of FFIEC, in addition to NCUA, are the Office of the
Comptroller of the Currency, the Federal Deposit Insurance Corporation, the Board of Governors of the Federal
Reserve System, and the Office of Thrift Supervision.




                                                           3
encountering accounts or transactions subject to OFAC regulations and for determining
the quality of an institution’s compliance program.




                                           4
                        PURPOSE AND OBJECTIVES
The U.S. Congress has shown an interest in the status of financial institutions’
compliance with OFAC foreign sanction requirements. Therefore, the NCUA OIG
initiated a review to determine whether NCUA provides effective supervision over
federally chartered credit unions’ compliance with OFAC requirements.

                       SCOPE AND METHODOLOGY

We reviewed OFAC sanction requirements and NCUA policies, procedures and guidance
related to the examination and supervision of credit unions’ compliance with OFAC
requirements. In addition, we reviewed the FFIEC BSA/AML Examination Manual as it
relates NCUA examiner efforts to supervise OFAC compliance.

We reviewed reports of examination and related examination workpapers for a random
judgmentally selected sample of 12 federally chartered credit unions. Our sample
consisted of credit unions with headquarters located in New York, New York; Miami,
Florida; and Los Angeles, California. In addition, the sample was stratified between
large, medium and small asset sized credit unions. The reviewed examinations had
effective dates between July 1, 2005 and March 31, 2006.

This engagement was performed in accordance with Generally Accepted Government
Auditing Standards.




                                          5
                                       RESULTS

NCUA supervision for OFAC compliance

Our efforts to evaluate and verify the examiners’ conclusions were hampered by the lack
of documentation. We were unable to conclude as to the effectiveness of NCUA
supervision over credit union compliance with OFAC regulations. Under the NCUA
Risk Focused Examination program, review of OFAC compliance is not required as part
of a credit union examination. If examiners conclude that an institution is OFAC
compliant, NCUA does not require that documentation be maintained and available to
support their conclusions. As a result, documentation is often not available to allow an
external reviewer to verify and assess the examiners’ conclusions. NCUA guidelines do
not specify the level of testing or the supporting documentation needed to substantiate
OFAC compliance testing.

NCUA examiners reviewed eleven of twelve credit unions in our sample for OFAC
compliance. However, there was a lack of supporting documentation for some
examination procedures performed and only six of the twelve examinations made use of
the NCUA OFAC checklist. Only one of the eleven credit unions reported an OFAC
violation. The credit union reported this violation to OFAC in 2006. In addition, the
workpapers for one credit union contained no discussion or reasons why OFAC
procedures were not reviewed.

In our review of the eleven credit unions where we found some evidence of examiner
review of OFAC compliance, examiners identified the following findings:
    • No OFAC audit – 3 credit unions
    • Policies need to be updated – 3 credit unions
    • Need independent testing – 2 credit unions
    • Need to test all parties to account/transactions – 2 credit unions
    • Need to test wire transfers, check deposits and internet bill pays – 1 credit union
    • Member accounts not matched timely to SDN list – 2 credit unions
    • Need an OFAC compliance officer – 2 credit unions
    • Need OFAC training for staff – 5 credit unions

Examiners may use the NCUA OFAC checklist to document their review of a credit
union’s OFAC compliance program. Agency management cited this check list as a
source document in conducting OFAC compliance reviews. Two of the three regional
directors cited the OFAC checklist as the workpaper used to document an OFAC review.
One of these regional directors stated that the OFAC checklist is the internal control that
ensures examiners performed appropriate examination procedures. Our review found
that only six of the twelve examinations utilized the OFAC checklist. See Appendix A
for details of the checklist.

Listed below is a summary of the examination procedures performed for the twelve
federally insured credit unions in our sample.



                                             6
Compliance Risk Assessment
All twelve credit unions were assigned a risk rating for compliance risk (6 rated high, 4
rated moderate and 2 rated low). However, eight credit unions lacked sufficient
documentation in the scope workbook to support risk associated with OFAC as part of
the overall compliance rating. For example, one credit union with a high compliance risk
rating had workpapers that referred to BSA but did not address OFAC risk or the FFIEC
OFAC risk factors, other than electronic banking.

Examination Scope
Seven credit unions lacked sufficient documentation regarding exam procedures
performed. For example, the workpapers reviewed for several credit unions simply stated
“reviewed compliance for OFAC” with no further explanation. In other reviews the
examiner referred to BSA exam procedures without mentioning OFAC.

Policies and Procedures
Six credit union examinations lacked sufficient documentation regarding the examiners
review of OFAC policy/procedures. In two additional exams, we noted that the
workpapers credited the credit union with having policies and procedures. However, our
review of those policies and procedures indicated that they were overly general and did
not provide details on how often the credit union should perform transaction testing and
on which products.

Transaction Testing
Five of the twelve exams in our sample lacked sufficient documentation supporting exam
transaction procedures performed. Another three exams had limited workpaper
discussion of procedures performed and one exam had no OFAC testing procedures
performed by the examiner.

Four credit unions used some form of interdict software for transaction testing. The
examination workpapers for seven credit union examinations were silent on the method
used by the credit unions for transaction testing. Without the use of some form of
interdiction software, credit unions would have had to perform manual transaction
testing.

Compliance Conclusion
Our efforts to evaluate and verify the examiners’ conclusions regarding OFAC
compliance were hampered by the overall lack of documentation. If examiners conclude
that an institution is OFAC compliant, NCUA does not require the examiner to maintain
documentation to support their conclusions. As a result, documentation is often not
available to allow an external reviewer to verify and assess the examiners’ conclusions.
NCUA guidelines do not specify the level of testing or the supporting documentation
needed to substantiate OFAC compliance results.

We found that five exams (four with a high and one with a moderate compliance risk
rating) lacked a specific conclusion regarding OFAC compliance. In addition, four




                                            7
exams lacked sufficient exam documentation to support the OFAC compliance
conclusion. For example, one examiner concluded that there were no significant
weaknesses in the OFAC compliance program. However, there was a lack of supporting
documentation for the assessment of OFAC risk, exam scope, policies and procedures
review and transaction testing was limited to BSA transactions.

Recommendation 1
NCUA should ensure that whenever examiners conduct an OFAC review, the
examination workpapers should contain sufficient documentation to support the OFAC
risk assessment and when applicable:
    • The related OFAC examination scope;
    • Policies and Procedures review;
    • Transaction testing review; and
    • An overall OFAC compliance conclusion

Management Response
Agree, NCUA management agrees with the need for sufficient documentation to support
a review of OFAC requirements if the risk profile warrants such a review.

OIG Response
Concur with agency response.

OFAC Guidance

 NCUA has issued guidance to both credit unions and examiners which address the
requirements for an OFAC compliance program. However, in both instances the
guidance is too general and does not provide specific guidelines, especially for
examiners. NCUA OFAC guidance is frequently included as part of more specific BSA
guidance, although OFAC and BSA regulations and examination compliance are distinct
in many ways. For example, the NCUA Examiner’s Guide discusses OFAC examination
procedures under the Guide section for BSA. The Guide provides a general discussion of
OFAC requirements and only limited discussion of specific examination procedures for
an OFAC review. NCUA guidance does not provide specific guidance on how to assess
OFAC compliance risk; how that risk impacts upon examination scope and procedures;
or the depth of review required.

We noted six examinations where BSA and OFAC discussions were commingled. This
made it unclear whether the examination procedures were related to BSA or OFAC
compliance.

In June 2005, FFIEC first released the BSA/AML Manual. An updated manual was
released in June 2006. The manual includes core procedures for examiners to use to
determine whether financial institutions are in compliance with OFAC sanctions
programs.




                                           8
According to the BSA/AML Manual, financial institutions should use a risk based
approach when considering the likelihood of encountering possible OFAC violations.
The manual recognizes that a fundamental element of sound OFAC compliance is an
institution’s assessment of its product lines, customer base, geographic location, the
nature of its transactions, and the identification of high-risk areas for OFAC transactions.


Recommendation 2
NCUA should ensure that examiners use the applicable policies and procedures in the
FFIEC Bank Secrecy Act/Anti-Money Laundering Examination Manual as well as the
NCUA Examiner’s Guide and policy directives when examining credit unions for OFAC
compliance.

Management Response
Agree, NCUA management agrees with using applicable policies and procedures in the
FFIEC Bank Secrecy Act/Anti-Money Laundering Examination Manual as well as the
NCUA Examiner’s Guide and policy directives when examining credit unions for OFAC
compliance.

OIG Response
Concur with agency response.




                                             9
                         MANAGEMENT RESPONSE


                                                                           EI/MJB:mjb

Sent via E-Mail


TO:            William DeSarno, Inspector General
               Office of Inspector General

FROM:          Director David M. Marquis
               Office of Examination and Insurance

SUBJECT:       Comments on Office of Foreign Asset Control Compliance Review Report

DATE:          December 14, 2006

This memorandum responds to your request for comments on the report titled, Office of
Foreign Asset Control Compliance Review (IG Audit Report #OIG-06-09). My office
appreciates the opportunity to comment on the report and we agree with the two
recommendations contained in it. As you appropriately pointed out in the report, our
examiners have been assessing compliance with OFAC requirements as directed under
our current risk-based examination program. In order to provide the additional
documentation cited in your report, we will need to evaluate amending our examination
process as it relates to OFAC compliance.

We offer the following comments regarding the specific recommendations contained in
the report:

OIG Report Recommendation #1
NCUA should ensure that whenever examiners conduct an OFAC review, the
examination workpapers should contain sufficient documentation to support the OFAC
risk assessment and when applicable:
    • The related OFAC examination scope;
    • Policies and Procedures review;
    • Transaction testing review; and
    • An overall OFAC compliance conclusion.

Office of Examination & Insurance Response:
My office agrees with the need for sufficient documentation to support a review of OFAC
requirements if the risk profile warrants such a review. At this time, however, we do not
require credit unions to perform an OFAC risk assessment, nor do we require our
examiners to perform one if a credit union has not completed one. That being said,
because we expect credit unions to develop risk-based OFAC procedures commensurate
with their risk profiles, a review of a risk assessment should be sufficiently documented.



                                           10
I understand the other federal banking agencies are also evaluating OFAC compliance
guidance and believe it is appropriate to confer with them on this issue to ensure
consistency among the regulators.

OIG Report Recommendation #2
NCUA should ensure that examiners use the applicable policies and procedures in the
FFIEC Bank Secrecy Act/Anti-Money Laundering Examination Manual as well as the
NCUA Examiner’s Guide and policy directives when examining credit unions for OFAC
compliance.

Office of Examination & Insurance Response:
We agree with using applicable policies and procedures in the FFIEC Bank Secrecy
Act/Anti-Money Laundering Examination Manual as well as the NCUA Examiner’s
Guide and policy directives when examining credit unions for OFAC compliance. As we
move forward with developing additional guidance with OFAC compliance, including a
national Instruction, we will strive to maintain consistency with other federal banking
regulators.

Again, thank you for the opportunity to comment on this report. If you have any
questions, please do not hesitate to contact my office.

cc: Office of the Executive Director


             s:\stafffolders\mjb\ofac\igmemo-responsetoofacauditreport.doc




                                          11
                                APPENDIX A
                NCUA Issued OFAC Compliance Guidance,
               Letters to Credit Unions, and Regulatory Alerts

Agency Issued OFAC Compliance Guidance

NCUA has issued OFAC compliance program guidance in the NCUA Examiner’s Guide,
NCUA FCU Handbook, NCUA Letters to Credit Unions and NCUA Regulatory Alerts.

              NCUA Examiner’s Guide, Bank Secrecy Act, Appendix 18A

OFAC examination procedures are discussed as part of the section on the BSA in
Appendix 18A of the NCUA Examiner’s Guide. The portion on OFAC states that
NCUA is responsible for determining that credit unions comply with OFAC regulations.
One of the listed examination objectives is to ensure the credit union has adequate BSA
policies, procedures, and controls for each of the following:
    • Verifying member identity;
    • Identifying reportable transactions;
    • Maintaining proper documentation;
    • Blocking and reporting transactions required by OFAC; and
    • Complying with the U.S.A. Patriot Act

One of the objectives of a member due diligence program is listed as, “enforcing OFAC
and Patriot Act regulations and enhancing national security”. The credit union’s due
diligence policy should reflect the;
    • Size and complexity of the credit union;
    • Nature and extent of services offered;
    • Level of risk; and
    • Documentation requirements

NCUA Rules and Regulations, Part 748 requires credit unions to have a Bank Secrecy
Act compliance program and procedures. Although NCUA’s regulations do not
specifically require that credit unions institute an OFAC compliance program, the agency
has advised (see Examiner’s Guide, Appendix 18A) that credit unions may include
OFAC policies within their existing BSA compliance policy.

In particular, NCUA has advised that a part of any credit union’s OFAC compliance
program must include conducting member identification procedures. That is, a specially
designated person within the credit union should determine whether any individual or
entity member appears on the SDN list, as provided and regularly updated by OFAC.
Credit unions must frequently update their own SDN lists in response to any OFAC-
generated updates. Moreover, credit unions must check the names of all parties to a
transaction (i.e. beneficiaries, collateral owners, cosigners/guarantors, receiving/sending
parties) against the SDN list. The credit union must review for compliance all types of
member transactions, including:



                                            12
•   Share accounts
•   Loans and loan payments
•   Credit cards
•   Letters of credit
•   Lines of credit
•   Safety deposit boxes
•   Wire and ACH transfers
•   Currency exchanges
•   Depositing and cashing checks
•   Money orders or traveler’s checks
•   Trust accounts

Larger credit unions may have special software which can interdict prohibited
transactions.

Credit unions must report to OFAC all blocked and rejected transactions within ten days
from occurrence. Credit unions must also file a comprehensive report of blocked
property held as of June 30, by September 30 of each year.

OFAC requires credit unions to retain all reports of blockings or rejections and related
records for five years.

                                 NCUA FCU Handbook

The FCU handbook states that credit unions must understand the various laws,
regulations and penalties for OFAC non-compliance. The handbooks states that credit
unions must: (1) establish effective OFAC policies and procedures; (2) maintain a
current list of prohibited individuals and countries; (3) compare their members, new
members and account transactions against the list, blocking all accounts and transactions
with prohibited entities; and (4) ensure that a designated person within the credit union
compares and maintains the current list of prohibited individuals and entities with
members’ transactions.

                             NCUA Letters to Credit Unions

NCUA Letter to Credit Unions 05-CU-09, issued June 2005, states that a review of BSA
compliance is required as part of NCUA’s risk focused examination program. In that
letter, NCUA acknowledged that while both BSA and OFAC compliance are integral to
any anti-money laundering program, they arise from distinct laws with different
requirements. Consequently, while they are different, some requirements for successful
compliance are the same. Accordingly, credit unions must develop policies to evaluate
potential compliance risk under both BSA and OFAC requirements and take appropriate
action to reduce such risks.

NCUA Letter to Credit Unions 01-CU-25, issued December 2001, states as part of
NCUA’s responsibility to ensure that federally insured credit unions comply with



                                            13
applicable laws and regulations, NCUA developed an examiner checklist that examiners
may use to document their review of a credit union’s OFAC compliance program. The
checklist contains an introduction and purpose; applicability; penalties; record retention
requirements and includes the following questions:
   1. Does the credit union have policies and procedures for complying with OFAC
       regulations and the various laws OFAC is responsible for administering?
   2. Has the credit union designated a person to be responsible for overseeing
       compliance with the OFAC regulations and any blocked funds?
   3. Does the credit union have a current listing of prohibited countries, organizations
       and individuals?
   4. Does the credit union have a person who is responsible for maintaining a current
       list of prohibited countries, organizations and individuals?
   5. Does the credit union compare new accounts with the OFAC prohibited listing?
   6. Does the credit union regularly compare established accounts and member
       transactions with the prohibited OFAC listing?
   7. Does the credit union block or freeze the accounts and transactions found to
       match the prohibited OFAC listing?
   8. Did the credit union report the blocked or rejected accounts to OFAC within 10
       days?
   9. Did the credit union submit an annual report of the blocked property by
       September 30?
   10. Does the credit union have an OFAC compliance audit at least annually?

NCUA/OFAC Memorandum of Understanding

NCUA, along with the other federal financial institution regulators signed a
memorandum of understanding (MOU) with OFAC on April 12, 2006. The MOU
provided for information sharing among the signatories pertaining to OFAC compliance
program violations. Under the MOU, the banking agency signatories to the MOU will
provide to OFAC:

   •   Information gathered during the course of an examination if such information
       appears to relate to an unreported sanctions violation;
   •   Information pertaining to significant deficiencies in a banking organization’s
       policies, procedures, and processes for ensuring compliance with OFAC
       regulations; and
   •   Information responding to OFAC requests related to examination or supervisory
       findings regarding a banking organization’s policies, procedures, and processes
       for ensuring compliance with OFAC regulations.

OFAC, in return will share with the signatories to the MOU:

   •   Reports of apparent sanctions violations, including any relevant correspondence
       between OFAC and the subject of the financial institution and status of any
       enforcement action;
   •   Notice prior to an on-site investigation or audit of a banking organization;



                                            14
   •   The results of on-site investigations or audits of a banking organization; and
   •   Evaluations of apparent violations by a banking organization, including whether
       OFAC has decided to issue a pre-penalty notice or a penalty notice, or to close its
       investigation.

Because the federal banking agencies and OFAC are now sharing information about any
potential sanctions violations, individual financial institutions are expected to report all
potential violations to OFAC or be prepared to explain to all of the financial regulators
why such reports were not filed.




                                             15
                               APPENDIX B
               Federal Financial institutions Examination Council
                   (FFIEC) BSA/AML Examination Manual


Enforcement procedures recognize that each financial institution is subject to supervision
and examination by a federal financial institution regulator, which is in turn a member of
the FFIEC. Below are OFAC related excerpts from the FFIEC BSA/AML examination
manual:

OFAC Risk Assessment:

       Risk matrix (high, moderate, low) for examiner OFAC Procedures
          • Customer base
          • High risk customers
          • Overseas branches
          • Electronic banking
          • Number of fund transfers and international transfers
          • Other types of international transactions
          • History of OFAC actions
       Other factors to consider
          • Management risk assessment
          • Board approved policies/procedures consistent with risk profile
          • Strong Quality controls
          • Compliance incorporated into all products and organization areas
          • Policies on screening new accounts and transactions

Core Examination Procedures:

The objective is to assess the institution’s risk-based OFAC program and to evaluate
whether it is appropriate for the institution’s risk, taking into consideration its products,
services, customers, transactions, and geographic locations. Procedures –
    1. Determine whether the Board of Directors and senior management have
       developed policies, procedures, and processes based on their risk assessment to
       ensure compliance with OFAC.
    2. Regarding the risk assessment review the institution’s OFAC program,
       considering the following:
       • The extent of and method for conducting OFAC searches of each relevant
            department/business;
       • The extent of and method for conducting OFAC searches of account parties
            other than accountholders;
       • How OFAC responsibility is assigned;
       • Timeliness of obtaining and updating OFAC lists or filtering criteria;



                                              16
   •   appropriateness of filtering criteria used to reasonably identify OFAC
       matches;
   •   The process used to investigate potential matches;
   •   The process used to block or reject transactions;
   •   The process used to inform management of blocked/rejected transactions;
   •   The adequacy and timeliness of reports to OFAC;
   •   The process to manage blocked accounts;
   •   The record retention requirements

3. Determine the adequacy of independent testing (audit) and follow-up procedures
4. Review the adequacy of the institution’s OFAC training program
5. Determine whether the institution has adequately addressed weaknesses or
   deficiencies identified by OFAC, auditors or regulators.
6. Transaction Testing – on the basis of institution’s risk assessment, prior exam
   reports and review of audit findings test the adequacy of the OFAC program by
   reviewing samples to test the credit unions OFAC program for adequacy as
   follows:
• Sample new accounts and evaluate filtering process used and documentation
   maintained evidencing searches.
• Sample appropriate transactions that may not be related to an account (e.g. fund
   transfers, check cashing) and evaluate filtering criteria used, timing of search and
   documentation maintained evidencing searches.
• If the credit union uses an automated search system to conduct searches, assess
   the timing of when updates are made to the system and when the most recent
   OFAC changes were made to the system.
• Evaluate whether all the institutions data bases are run against the system and
   frequency of searches
• If an automated system is not used, evaluate the process used to check existing
   customer base against the OFAC list and frequency of such checks
• Review a sample of potential OFAC matches and evaluate resolution process and
   blocking/rejection process; review sample of reports to OFAC for completeness
   and timeliness; if the institution is required to maintain blocked accounts.
• Evaluate a sample that adequate records are maintained, institution pays
   commercially reasonable rate of interest and is accurately reporting such accounts
   annually at September 30 and test account blocking controls.

7. Identify any potential matches not reported to OFAC, discuss with credit union
    management, advise management to immediately report to OFAC and notify
    NCUA management.
8. Determine the origin of deficiencies and conclude on the adequacy of the credit
    unions OFAC program.
9. Discuss OFAC related examination findings with credit union management.
10. Include OFAC conclusions within the report of examination, as appropriate.

   Other examination factors
      • Compliance program staffing levels adequate



                                        17
•   Qualified OFAC officer and clearly defined authority and accountability
•   Appropriate training based upon risk profile
•   Effectiveness of compliance systems and controls
•   Effectiveness of independent testing of systems, training and use
•   Problems and potential problems identified and resolved
•   Compliance systems and controls adaptability to OFAC SDN updates




                                18
